HHS/OIG-Audit--"Review of Medicare Payments to Health Maintenance Organizations for End Stage Renal Disease Beneficiaries, (A-04-94-01090)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments to Health Maintenance Organizations for End Stage Renal Disease Beneficiaries," (A-04-94-01090)
February 9, 1996
Complete
Text of Report is available in PDF format (721 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that between October 1990 and February 1995 approximately $35.7 million in overpayments have
been made to health maintenance organizations (HMOs) and competitive medical plans (CMPs) for Medicare beneficiaries inappropriately
identified as having end stage renal disease (ESRD). These overpayments are continuing, and are due primarily to systemic
weaknesses in the Health Care Financing Administration's (HCFA) systems for classifying beneficiaries in certain high-cost
categories that carry an enhanced payment rate. We are recommending that HCFA recover the $35.7 million in overpayments
as well as subsequent overpayments that have occurred, make certain systemic and procedural changes to prevent future overpayments,
and advise all HMOs and CMPs that ESRD rates are only effective for beneficiaries who currently are diagnosed as having
ESRD. The HCFA concurred with our recommendations.